No. 20-827

 

IN THE
Supreme Court of the United States

UNITED STATES,
Petitioner,
Vv.

ZAYN AL-ABIDIN MUHAMMAD HUSAYN,
AKA ABU ZUBAYDAH, ET AL.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

BRIEF OF THE BUREAU OF INVESTIGATIVE
JOURNALISM AND THE RENDITION
PROJECT AS AMICI CURIAE IN SUPPORT OF
RESPONDENTS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1th), I certify that the document contains
6,106 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2021.

 

Wilson-Epes Printing Co., Inc.
